December 28, 2020
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Via electronic submission
Re:

No. 20-828; Yassir Fazaga, et al. v. Federal Bureau of Investigations, et al.

Dear Mr. Harris,
I am counsel for Respondents Yassir Fazaga, Ali Malik, and Yasser AbdelRahim in the
above-captioned case. I write to request a 60-day extension of the deadline to file Respondents’
brief in opposition to the petition for writ of certiorari, from January 19, 2021 to March 22, 2021.
Petitioners’ counsel has stated that the government does not oppose this request.
Respondents seek this extension due to counsel’s competing personal and professional
obligations. First, the ongoing public emergency in the County of Los Angeles, where
Respondents’ counsel are based, makes timely response to the petition difficult. Continuing
restrictions imposed in the County have resulted in the closure of offices where Respondents’
counsel work and the closure of schools and child care facilities for counsel’s children. Given
that COVID-19’s spread in Los Angeles County is unlikely to abate this winter, Respondents’
counsel expect to work under diminished capacity for at least the next two months.
Second, Respondents’ counsel are working on several other cases that require significant
expenditure of time and resources during the initial 30-day response period, including summary
judgment briefing throughout January and February in Phillips et al. v. U.S. Customs and Border
Protection, No. 2:19-cv-06338-SVW-JEM (C.D. Ca. filed July 23, 2019), a complex multi-party
constitutional rights case in the Central District of California.
Finally, Respondents’ counsel’s pre-existing vacation and leave schedules this holiday
season will also compromise their ability to respond to the Government’s petition without the
requested extension. Counsel undersigned is currently on leave until Feb 22, 2021. Other counsel
for Respondents are currently in the middle of multiple-week holiday vacations.
Due to the challenges resulting from the COVID-19 public health emergency, concurrent
litigation demands, and pre-existing personal commitments, responding to the Government’s
petition without a 60-day extension would be difficult. Respondents’ counsel therefore requests
the Court grant this request.
Thank you for your attention to this matter.

•

•

•

•

•

Page 2
Sincerely yours,

Ahilan Arulanantham
Counsel for Respondents
cc:

Jeffrey B. Wall
Jeffrey Bossert Clark
Edwin S. Kneedler
Sopan Joshi
Jonathan Y. Ellis
Sharon Swingle
Joseph F. Busa
Counsel for Petitioners
Department of Justice, Room 5616
950 Pennsylvania Ave., N.W., Washington, DC 20520-0001
SupremeCtBriefs@usdoj.gov

